 Department of Health and Human Servces

         OFFICE OF

    INSPECTOR GENERA





PERFORMANCE INDICATORS, ANNUAL

  REPORTS, AND STATE MEDICAL

  DISCIPLINE: A STATE- BY- STATE

             REVIEW





             VIC.

                    Richard P. Kusserow
                    INSPECTOR GENERA
       "0



            ola         OEI-Ol-8-O563
                      EXECUTIVE SUMMAR
PUROSE
In this study, we seek to contribute to the development and use of performance
indicators for State medical boards.

BACKGROUN
How many complaints has a State board received? How many investigations has it
intiated? How long has it taken to complete an investigation? How many
disciplinar actions per licensee has it taken? How many nondiscipliary educational
actions has it taen? In this report , we pose these and 15 other basic questions
about the performance of State medical boards , and then identif the extent to which
they are answered in the annual report of these boards. We focus on questions
concerng medica discipline , the sphere in which most of our prior work has been
conducted. Questions             concerng medical licensure are also of importance and
warrant simar attention.

FIINGS
Thir-thee Sta                meal board is               an   an    report               oth is biel report
                 th report provi few            anser to th 20 quns                        Tho aner none of
qutins at al 
           Th     oth    rarel offer tren data          an tyal                prvi pa-yea data
th resnd             to onl a few of the qutins.
    report are mo     to anser li               ta  quns conc th nuer of complain
                                                         14.ti
Th

receied an diciliry actins
su
th CO"esndg nuer
                  data for   th pa   year and

                                     are 30 and
                                                   12
                                                          In regard to

                                                         for prr   years as
                                                                             complain         29

                                                                                        wel for
                                                                                                    reprt provi
                                                                                                   dipli    actins

       lack of informtin concerg th proesg                                                    un rev
par
Th

        stg.
provi an informtin
                                                 for cases
                     For th three quns posed on th matt
                                                   at all
                                                                                                  onl thee   report



CONCLUDING OBSERVATIONS


Th           of peormnce inators is th opport th can provi to make
       major val
compaatie  asests     and to raise quns    peorme can be improvedon how

We sugges th State lelatues mand th th boa esblih a ser of
peonn      inatrs and provi data on th in an reprt Toward th en
th Natna             Conferene of State Lelatues, th Natina Goverrs                                   Astir;
Coun of Sta Goerts, th Fedn                                     of State         Medal Boards an             th Uni
State Puli            Hea Sere can pla                                                  role as agen for
exge of id                   and informtin.
                                                        valble supporte
                                    ......................................
                                   ......................................
                                 . . . . . . . . . . . .. '. . . . . . . . . . . .. .. .. .. .. .. ....... .. .. ..... ..... .
              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. . .. ..      . . . . . ..




                 TABLE OF CONTENTS
EX SUMY .
INODUCfON .
STATE MEICAL BOARS
   .A.A RER'f                    ........................................ 3

DEfCfON OF AIGED VIOlATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . 5
REVIW OF AIGED VIOlATIONS                                                                                              .. 14

RELUTON OF CAS:E
CONCLUDING OBSERVATIONS . . . . . . . . . . . .

APPENIX A
   Endnotes

APPENIX B


   The Twenty Questions                                                                                               .. B-1
                          INTRODUCTION

Performance indicators , expressed in terms of percentages and ratios , can be valuable
mechanisms for assessing results and pinpointing accountabilty. In themselves they
do not provide defitive answers about performance. But they can serve as useful
guideposts that raise important questions about why thigs are the way they are and
how they might be better. Ths is particularly so if the data are presented regularly
and in a manner that allows for comparative assessment--both of an organiztion
performance over time and of its performance vis-a-vis that of other like
organtions.
In the business world , managers , investors , and others have long relied on
performance indicators in assessing a corporation s profitabilty. Indeed , the
Securities and Exchange Commission (SEC) has identifed a long list of such
indicators and has mandated that any publicly traded corporation provide quarterly
data on them. The data address sales per share , earngs per share , percent return
on equity, debt- to-equity ratio , and many other performance-related measures.

In the public sector,where objectives tend to be more vared and less precisely
defied, performance    indicators have been much less commonly used. Yet , in recent
years, in response to widespread concern about governental performance , they have
been gaing increased attention. Ths is apparent in the fields of education and
health cae, where major effort are underway to improve the capacity to measure
and track performance. It is also apparent in the Chief Financial Offcers Act of
1990, which among other things calls for Federal agencies to provide for " the
systematic measurement of performance" as part of an integrated accounting and
financial management system.

Thus far, State medical boards , which are responsible for the licensure and disciplie
of physician , have not made much use of performance indicators. Some movement
in that direction , however, appears to be underway. In the fall of 1990 , the
Federation of State Medical Boards (FSMB), with support from the United States
Public Health Servce (PHS), intiated a project to develop a self-assessment
intruent for the boards. At about the same time, the Citizen Advocacy Center
which provides support to public members of professional licensing boards , issued a
draft set of indicators that could be used for evaluating medical boards. More
recently, in a May 1991 legislative proposal addressing medical liabilty and
malpractice problems , the White House called for State medical boards to collect
and issue a range of performance-related data.

These initiatives are in accord with a recommendation we made in an
August 1990 report entitled "State Medical Boards and Medica Discipline
 (OEI- 01- 89- 00560). 6 In that report we called upon both the FSMB and the PHS to
 support the development of quantitative indicators that could contribute to
 assessment of board performance. Both parties supported the recommendation.

 PUROSE
 Though this report we seek to contnoute to the further development and use of
 performance indicators for State medical boards. In so doing, we address only those
 board responsibilties concerning medical disciplie, the sphere in which most of our
 prior work has been concentrated. Similar attention , we believe , is warranted for
 those responsibilties concernng medical licensure.

 MEODOLOY
 Instead of proposing specific ratios and percentages that might be used as   indicators
 we identif 20 basic questions that could provide the basis for such ratios and
 indicators (see appendix B). We take this approach because it focuses attention on
 the kid of information that could provide the foundation for developing quantitative
, indicators.



 We pose questions that concern three different facets of the boards ' discipliar

 responsibilties: (1) the detection of aleged violations , (2) the review of alleged

 violations, and (3) 
 he resolution of caes. The questions are straightforward ones
 that are likely to be of interest to those associated with boards and to relevant
 outsiders, such as governors, State legislatures , and the public. They emerge
 priar from our prior work in the field and from our review of an insightful study
 conducted recently by the Virginia Department of Health Professions.

 For each of the 20 questions ,   we then determne the extent to which answers are
 avaiable in anual reports   on the State medical boards.    For the 36 boards that we
 found produce such report, 9 we review the most recent report and indicate whether
 or not the answers are available, both for the most recent year and for prior years.


 We focus on anual reports because of their regular issuance and their public nature.
 Lie the anual reports of corporations conformg to SEC requirements, they
 represent what ca be a visible and important means of accountabilty to key
 constituencies.

 In the followig pages , we start out with an overvew of the States havig annual
 report and of the content of those reports. We then present the State-by-State data
                              grouped in the 3 categories noted above. We close
 for each of the 20 questions ,
 with a few concluding observations.
       STATE MEDICAL            BOARS          WI ANAL 
            REPORTS

In an important recent document, an expert panel convened by the Federation of
State Medical Boards (FSMB) indicated what it regarded to be the vital elements of
                                ll
a modem State medical board. Among these was the issuing of an annual report.
Each year, the panel noted, a board should submit to the governor, the legislature
and the public It a formal report summariing its licensing and discipliary activity for
that year. "12 It then specifed 14 categories of data that at a mium     should be
included in the report.   Many of them correspond to questions we pose in the
following pages.


Compared with the vision set forth by the FSMB panel, the current reality is quite
diferent. Most strng is that the District of Columbia (hereafter referred to as a
State) and 14 States stil do not produce an annual report (table 1), and they include
two of the most populous States in the countr--New Jersey and Ohio. Both of these
States reguarly compile reports namg the physicians who have been disciplied and
cite the discipliary actions taken against them but do not issue yearly statistical
summares in the reports. 


The 36 report that are issued vary greatly. They range from a single- page listing of
data on various actions taken by a board to a more than 300- page document
including little summary data but detailed descriptions of the fidings and conclusions
on cases brought before the board.      Some are wrtten and organized   to reach a
general audience; others are presented as technica pieces intended for a     limited
audience.

Some of the report offer background information on the board and explanations of
some of the activities undertaken durig the year. Few provide any analysis of the
data s implications for the performance of a board.

Overall, the report do not provide      many answers to our 20 questions.   Two of the


questions.
36 report, in fact, answer none of the questions at all. The others seldom provide
trend data and tyically offer past-year data that are responsive to only a few of the


Many and perhaps most of the State boards do have computeried data bases that
could provide many more answers to the questions than those that are presented in
the annual reports. Some even prepare summaries of these data bases, which they
use for their own information and/or to respond to inquies made of them.
            ;':    %:::
                   :=?:~~~~:;
                         ~~~
                        ~~~~
                           ~~~   ;;' ;:.. ~~~
                                 ~~~~         ..:::;
                                           :: ~~~~     . ;:;~~~~           .:   ::/. .~~~    .;:.   .:;::
                                                                                                     .: :   . ' /:":'' )
                                                                                                               . ''::.       ': '' ::'
                                                                                                                 .:.; . : .:~~~    ~~~   : ::: /;'
                                                                                                                                      :\:~~~~     ::.
                                                                                                                                                 :::
                                                                                                                                               ~~~~            ~~~' '
                                                                                                                                                             ~~~~
                                                                                                                                                              ~~~        :"'      ~~~~~~~~        :!.::: ~~~
                                                                                                                                                                                        :":. :;:: ~~~~    :. ::;'.. ~~~
                                                                                                                                                                                                                     ;. . :       \;.,:(::;/
                                                                                                                                                                                                                                   . ~~~        ~~~




                                                                                                    Table
                                       STATE MEDICAL BOARS WITH ANAL REPORTS

state
                                       oo                                                                                                                                                                                                      ; .0.
                  f:1'                            : :e    kJil1? J:\                         t:                                                        l!)              IJ5;        I:;;;
       'Y
                                                                   i.:i;        r..                                                                    :?=r              ::r                              ;: i


"t' :tr                                                            :r
                                                                                                                   L::..                          lf1r.                                                                     :i:




                                                                                  !::)V
J3:'                                                          :l;It!?                                                                                                          B21:Jfi

iI: k::              ITY:;(              t:..;;            :-r;;q!.                                                                                    t:;;l ;rZ:                                \;:t1'                \:\ IrC          rF:




                                                              trI :ttt                 r .                                                             :r: :ri             !f.:            k:.     :I1            ;T r:;:                :1.




Key: An "X" in the                      colum indicates that an annl                                           reprt providing                               informtion on the activities of the
State meical bord has be issue in 198 or thereafter.

Source: State meical bords as reprted to the Office of Inspetor Genral.

                   DETECTON OF ATJ,RGED VIOIATIONS

In ths fist set of questions ,
                          we direct attention to the identifcation of physicians
who may warrant discipliary action. We focus on two key variables: complaints
and caes.

Complaits , as we and the boards commonly use the term , are broadly defied             as
possible cases brought to the board' s attention by outside sources. They involve
claims of alleged wrongdoing submitted by consumers or others. They also involve
referrals (sometimes mandated) made by hospitals , law enforcement agencies
professional associations,   malpractice insurers , and others.1 Thus , by the term
 complait," we refer to external sources , of all kids , that brig possible    cases to the
attention of the boards.


Because all complaints do not and perhaps should not lead to formal investigations
we distinguish them from cases that boards have actually opened for investigation.
Ths universe                         although not necessary, smaller than that of
               of cases is most liely,
complaints. It ca be larger since cases can be opened through proactive internal
efforts of the boards as well as though complaints from external parties.

In this section we pose 8 questions and review the extent to which the 36 anual
reports. provide answers to them. The fist two questions address the number of
complaits received and the number of cases opened; the next two ask if inormation
is provided that compares these totals to the number of licensed physicians in the
State. Such inormation ca be more useful than the absolute numbers in assessing
changes occurrg over time or differences among State boards.

The last four questions    introduce two additional varables:   complait source and
complait tye. The former we          discussed above; the latter distinguishes among
various kids   of alegations,   such as inappropriate prescnbing, crial misconduct
or self-abuse of   drgs. In reviewig data on the tye     of complaints ,   the reader
should recogne that upon investigation the grounds for possible board action can
dier from the nature of the complaint that initiated the process.

The followig tables indicate that the reports are much more liely to present data
on complaits than on cases opened for investigation. The most complete data
concern the absolute number of complaints , with 29 of the 36 report presenting
such data for the past year and 12 for prior years as well. Data on complaints per
licensed physician in the State ,   by complaint source, and by complaint tye    are
almost completely lackig.


In regard to caes opened for investigation . only 16 of the report offer such
information for the past year and 6 for previous years. No reports provide the
information on a per-licensed-physician basis , two do so on the basis of complaint
source, and four do so on the basis of complaint tye.
                                         Question


    HOW            COMPLAINTS              THE STATE KEDICAL             BOAR RECEIVED?
state           Past Year Data Provided                       Trend Data Provided




Key: An "X" in the firstcolLl  indicates informtion is provide in the    latest amul reprt issue
1989 or thereafter. An "X" in the secon colLl  indicates informtion is   provide for previou year(s).
Source: State meical bords as reported to the Office of Inspetor Genral.
                                         Question
       HOW            CASES HAS THE        BOAR OPENED          FOR INVSTIGATION?

state           Past Year Data Provided                      Trend Data Provided




Key: An "X" in the first colUl indicates informtion is provide in the latest annl reprt issue in
198 or thereafter. An   "X" in the secon colUl indicates informtion is provide for previou year(s).
Source: State meical bords as reprted to the Office of Inspetor Genral.
                                         Question
     HOW           COMPLAINTS PER LICENSEE                       THE     BOAR RECEIVED?
state          Past Year Data Provided                         Trend Data Provided




Key: An "X" in the firstcolur   indicates informtion is provide in the   latest amul reprt issue in
1989 or thereafter. An "X" in the secon colur indicates informtion is    provide for previou year(s).
Source: State meical bords as reprted to the Office   of Inspetor Genral.
                                         Question
           HOW           CASES PER LICENSEE                  THE BOAR OPENED?

state           Past Year Data Provided                      Trend Data Provided




Key: An "X" in the firstcolUl                                  in the latest annl
                                indicates information is provide                    reprt issue in
1989 or thereafter. An "X" in the secon colUl indicates informtion is provide for   previou year(s).
Source: State meical bords as reprted to the Office of Inspetor Genral.
                                                 Question

                HOW               COMPLAINTS FROM EACH COMPLAINT SOURCE

                                       HAS THE BOAR RECEIVED?

state                 Past Year Data Provided                          Trend Data Provided





Key: An "X" in the first       colUl indicates information is provide in the latest annl      reprt issue in
198 or thereafter. An         "X" in the secon colUl indicates informtion is provide for previou year(s).
Am the "             laint sources" that might be idetified are conslmrs , other licenees , hospitals ,   meical
societies ,   etc.


Source: State meical bords as reprted to the Office of Inspetor Genral.
                                             Question

                 HOW   MA CASES          FROM EACH COMPLAXNT SOURCE

                                   HAS   THE BOAR OPENED?

state           Past Year Data Provided                          Trend Data Provided





Key: An OX" in the first   colUl indicates   informtion is provide in the   latest annl reprt   issue in
198 or thereafter. An "X" in the secon colUl indicates informtion is provide for previou year(s).
Am the " laint sources" that might be idetified are conunrs, other licenee , hospitals, meical
societies , etc.
Source: State meical boards as reprted to the Office   of Inspetor Genral.
                                             Question
                           BOW 	          COMPLAINTS OF EACH TYPE
                                          THE BOAR RECEIVED?
state            Past Year Data Provided                            Trend Data Provided




Key: An "X" in the first   colll indicates   informtion is provide in   the latest amual reprt issue in
198 or thereafter. An"X" in the secon colll indicates informtion is provide for previou year(s).
Am   the ItypS" of cCllaints that might be idetified are gross nel igene, incCltene, inappropriate
prescribing/treatmet ,   self abue of drugs or alcohol   , sexual miscont ,   etc.


Source: State meical bords as reprted to the Office of Inspetor Genral.
                                           Question
                              HOW   MA CASES          OF EACH TYPE
                                    HA THE BOAR OPENED?
state           Past Year Data Provided                         Trend Data Provided




Key: An "X" in the firstcolua     indicates informtion is provide in the latest amul reprt issue
1989 or thereafter. An "X" in the secon colua indicates informtion is provide for previou year(s).
Am the "typs" of       cases that might be idetified are gross nel igene , incCltene , inappropiate
                                                    , sexual miscont
prescribing/treatment , self abue of drugs or alcohol                  , etc.

Source: State meical boards   as reprted to the Office of Inspetor Genral.
                          REVIW OF 
          AT J .   GED VIOIATIONS

    We frame this second category of questions around the process of obtaiing,

    assessing, and acting upon inormation concerng physicians who may have

    committed a violation. We focus on one vital and relatively easy to measure

    variable: time.



    We ask how long the process takes , once a cae is opened , to reach two critical
    points: the completion of an      investigation and the resolution of the board' s action
    involvig a physician      under investigation. That resolution may take the form of the
    closing of a case ,   a discipliary action   , or a nondiscipliar educational action.
    We recogne that the review process involves many other important considerations
    but we regard time as a good initial performance indicator that can help identif and
    generate follow-up actions that can improve the process. IT the amount of time it
.   takes a board to conduct an investigation or resolve actions is increasing or is high
    relative to that of other boards , it is important to fid out why this is so. The
    resultant inquir and explanations might well identif weaknesses in how a board
    prioritizes caes , in the adequacy of its resources, in the trainig and/or capabilty of
    its investigative staff, and the like. It may also identif problems outside the board,
    such as delays in the offce of the State      attorney, that slow down the process and
    1hat State offcials          have to address if a board is to expedite its review process.

    It is also important to recognize that if a board' s review time is decreasing and/or is
    less than that of other boards , there may be explanatory factors that stil raise
    concerns about the effectiveness of the process. It may be , for instance , that a board
    is able to process cases relatively quickly because it avoids complex cases involvig
    the adequacy of medica care rendered and concentrates on caes that involve less
    patient har but are easier to process. Thus , we add two questions that address
    processing time in relation to the tye of case involved.

    Unfortnately, the report are almost   totally lackig in inormation that could lead to
    the kid of inquir noted   above. For the four questions posed, only three report
    provide any inormation at all. Another report (Caliorna) notes in passing that the
    review process, from complaint to resolution , takes about 2 years but offers no
    further detais on the point.
                                        Question

       HOW LONG, ON AVERAGE, HAS IT TAKN FROK TH OPENING

            A CASE TO THE COMPLETION OF AN INVSTIGATION?
state            Past Year Data Provided                     Trend Data Provided




                   rst colum indicates informtion is provide in the latest annl reprt issue
Key: An "X" in the fi
198 or thereafter. An "X" in the secon colum indicates informtion is provide for previou year(s).
Source: State meical bords as reprted to the Office of Inspetor Genral.
                                        Question '10

        HOW LONG, ON AVERAGE, HA IT TAKEN FROK THE OPENING

          OF A CASE TO THE COKPLETION OF AN INVSTIGATION,

                       FOR EACH TYPE OF CASE?


state          Past Year Data Provided                        Trend Data Provided




Key: An "X" in the first colLn indicates informtion is provide in the latest amul reprt issue in
1989 or thereafter. An "X" in thesecon colLn    indicates informtion is provide for previou year(s).
Am    the IItypS" of cases that might be idetified are gross nel igene, inc
                                                            miscont,    etc.
                                                                                  tene , inappropriate
prescribing/treatmet , self abue of drugs or alcohol , sexual
Source: State meical bords as reprted to the Office of Inspetor Genral.
                                       Question '11
        HOW   LONG, ON AVERAGE, HAS IT TAKEN FROM THE OPENING
                 OF A CASE TO THE RESOLUTION OF ACTION?

state          Past Year Data Prov ided                     Trend Data Provided




Key: An "X" in the first colum indicates informtion is provide in the latest amul reprt issue in
1989 or thereafter. An "X" in the secon colur indicates informtion   is provide for previou year(s).
"Resolution of action" is the final bord action on the case.


Source: State meical bords as reprted to the Office of Inspetor Genral.
                                             Question #12
            HOW LONG, ON AVERAGE, HAS IT TAKEN FROM THE OPENING
                          A CASE TO THE RESOLUTION OF ACTION,
                                FOR EACH TYPE OF CASE?
state              Past Year Data Provided                    Trend Data Provided




Key: An "X" in the first  colUl indicates informtion is provide in the latest annl  reprt issue
1989 or thereafter. An "X" in the secon colUl indicates informtion is provide for previou year(s).
"Resolution of action" is the final   bord
                                         action on the case. Am    the "typs" of cases that might be
idetified are gross neligene, incDqtene , inappropriate prescribing/treatmet , self abuse of drugs or
alcohol ,   sexual miscont ,   etc.


Source: State meical bords as reprted to the Office of Inspetor Genral.
                                REOLUTON OF CASES

In this fial category, we emphasize two additional varables: discipliary actions and

nondisciplinary educational actions. By disciplinary actions , we refer to those license
revocations , suspensions , probations , reprimands , fies , or other such actions intended
to penalie a physician for a given violation. By nondiscipliary educational actions
we refer to those actions that do not involve a discipliar order but are intended to
help a physician improv his or her practice of medicine. They might, for instance
involve a medical counselig session with board-associated physicians.

Discipliary actions are the most widely used    and controversial indicator of board
performance. The American Association of Retired Persons, in a 1987 report
asserted that the simplest way to determine how well a board is performng is to
identif how many discipliary actions it is takig.      But others maintain that such an
indicator is a poor one on the grounds that it can lead to distorted perceptions of
board performance and can encourage a system of quotas.

We recogne that a singular and simplistic use of discipliary actions in assessing
board performance can be dysfunctional. It is for that reason that we complement
them in this report with the other variables identifed earlier and with the strictly
educational interventions some boards direct to physicians. By regularly issuing data
concerng these             boards ca faciltate balanced and comprehensive
                  variables ,
assessments of their performance.

A fial question we introduce has to do with how a board action is taken rather than
with the action itself. It addresses the number of caes settled through consent
agreements rather than through evidentiary heargs. Some feel that consent
agreements are appropriate approaches that enable boards to carr out their
responsibilties to the public more quickly. Others argue that they can lead to
disciplinar actions that are too lenient and that can impede action against the same
physician in another State in which he or she may be licensed. For both sides , and
for those who have no preconceived view of the matter, the question, if answered
can help frame considerations in light of recent realties and lead to useful follow-up
questions relatig consent agreements to source of complaints and tye of cases.


The report provide   more information on discipliar actions than on any other
variable identifed. Thirt of them indicate the number of such actions taken in the
past year and 27 distinguish those actions by tye. For prior years , 14 indicate total
discipliar actions and 10 identify them by tye.
Among the remainng questions , ten reports offer some information on consent
agreements , four on disciplinary actions by tye of case , and two on educational
actions. For four questions , those concerng actions per licensee and actions by
complait source ,   none of the report provides any answers at all.
                                          Question '13

 HOW  MA CASES OPENED FOR INVSTIGATION HAVE: (A) BEEN CLOSED
    WITHOUT ACTION, (B) RESULTED IN DISCIPLINAY ACTION, AN
       (C) RESULTED IN NONDISCIPLINAY EDUCATIONAL ACTION?


state




                                                                       the latest annl reprt
Key: An "X" in the past year CPr) colum indicates informtion is provide in
issue in 1989 or thereafter. An "X" in the tren data (TD) colum indicates informtion is provide for
previou  yearCs). "Discipl inary action" are official bord action inten to pel       ize a licenee.
"Nonisc;pl inary edationl action" are official board action not associated with any discipl inary action
against a licenee and inten to edate a licenee on som matter involving the practice of meicine.

Source: State meical boards   as reprted to the   Office of Inspetor Genral.
                                        Question '14
                      HOW   MA DISCIPLINARY              ACTIONS PER

                             LICENSEE HAVE BEEN TAXN?

state          Past Year Data Provided                       Trend Data Provided





Key: An "X" in the first colum indicates informtion is provide in the   latest amul reprt issue
198 or thereafter. An "X" in the secon colum indicates informtion is provide for previou year(s).
"Discipl inary actions" are official board action inten to pel ize a licenee.

Source: State meical bords as reprted to the Office of Inspector Genral.
                                         Question '15

              HOW    MA NONDISCIPLINARY    EDUCATIONAL ACTIONS

                           PER LICENSEE HAVE BEEN TAKN?
state           Past Year Data Provided                         Trend Data Provided




Key: An "X" in the first colUl  indicates informtion is provide in the   latest amul reprt issue in
1989 or thereafter. An "X" in the secon colUl indicates informtion is provide   for previou year(s).
"Noniscipl inary edcationl action" are official bord action not associated with any discipl inary action
against a licenee and   inten  to edate a licenee on som matter involving the practice of meicine.

Source: State meical boards as reprted to the Office of Inspetor Genral.
                                           Question '16
                    HOW    MA   DZSCZPLZNAY ACTZONS FROK EACH
                           COKPLAZNT SOURCE HAVE BEEN TAKN?
state             Past Year Data Provided                        Trend Data Provided




Key: An "X" in the first   colUl indicates   informtion is provide in the   latest amul reprt issue
198 or thereafter. An     "X" in the secon colUl indicates informtion is provide for previou year(s).
"Disciplinary   action" are official bord action intened to pelize a licenee. Am the "             laint
sources" that   might be idetified are conumrs, other licenees , hospitals, meical societies, etc.

Source: State meical bords as reprted to the Office of Inspetor Genral.
                                             estion '17
      HOW    MA NONDISCIPLIHAY EDUCATIONAL ACTIONS                               FROM EACH

                        COMPLAINT SOURCE HAVE BEEN TAKN?

state             Past Year Data Provided                       Trend Data Provided





Key: An "X" in the first colum indicates informtion is provided in the latest    annl report issue in
1989 or thereafter. An "X" in the secon colum indicates informtion is provide      for previous   year(s).
"Noni scipl inary educationl action" are official bord action not associated with any disciplinary action
against a licenee and are inten    to edate a licenee on som matter involving the practice of meicine.
Am the " cCJlaint sources" that might be idetified are conllrs, other licenee, hospitals, meical
societies, etc.
Source: State meical bords as reprted to the Office of Inspetor Genral.
                                               Question '18

                       HOW    MA DISCIPLINAY ACTIONS    FOR EACH

                               TYPE OF CASE HAVE BEEN TAKN?
state               Past Year Data Provided                         Trend Data Provided




Key: An "X" in the first colum indicates informtion is provide in       the latest annl   reprt issue in
198 or thereafter. An      "X" in the secon colum indicates informtion is provide for previou year(s).
''Discipl inary   action" are official board   actions   inten to pel ize a licenee. Am the "typ" of
cases that might be idetified are gross neligene , incoqtene , inappropriate prescribing/treatmet,
self abue of drugs          , sexual miscont , etc.
                       or alcohol

Source: State meical bords as reprted to the Office of Inspetor Genral.
                                            Question   '1.9
                    HOW   MA DISCIPLINARY              ACTIONS            EACH

                                        TYPE HAVE BEEN TAKN?

state           Past Year Data Provided                       Trend Data Provided





Key: An "X" in the first colur  indicates informtion is provide in the   latest amul reprt issue
1989 or thereafter. An "X" in the secon colur indicates informtion is    provide for previou year(s).
"Discipl inary Action" are officialbord action   inten to pel ize a licenee. Am  the "typ" of
discipl inary action taken   against licenees are licene revocation , licene suspeion, licene
probtion, reprimand   , fine ,   etc.


Source: State meical bords as reprted to the Office of Inspetor Genral.
                                       Question '20

 HOW           CASES HAVE BEEN SETTLED THROUGH A CONSENT AGREEMENT
                           OPPOSED TO AN EVIDENTIARY HEARING?

state           Past Year Data Provided                       Trend Data Provided




                       col\J indicates informtion is provide in the latest amul report issue in
Key: An "X" in the first
198 or thereafter. An "X" in the secon colll indicates informtion is provide for previou year(s).
Source: State meical bords as reprted to the Office   of Inspetor Genral.
                          CONCLUDING OBSERVATIONS


The major value of performance indicators is the opportunity they can provide for
comparative assessments. For instance , identifng the number of complaints a board
has received from consumers in 1990 is likely to mean little in itself. But, if that
number is compared with parallel numbers for prior years , then a reviewer can
determine if there has been a change and, if so , ask why. Simarly, if a board'
performance on some indicator is compared with lie boards in other States , a
reviewer can see if that board' s performance differs from the others and, if so , seek
to learn the reasons. The Virgia Department of Health Professions , in its recent
report, addressed such interstate comparsons as, follows:

          It is clearly in the interest of individual regulatory boards to compare
          their enforcement experience with the experience of boards governing
          lie professions in other States. Once these comparsons are made-­
          using a consistent nomenclature and standardized measures of
          enforcement activity--boards may wish to examie the regulatory
          envionment (regulatory provisions , resources , and organtional
          structure) in which they operate for an explanation of signcat
          diferences in performance. If structural impediments to public
          protection and the fair and equitable treatment of licensees are
          identifed, efforts should be made to remove those impedimentsP

In the middle of the above quotation is a term that is of great consequence. to any
comparative effort: " a consistent nomenclature. " Establihig such a nomenclature
obviously would be far more diffcult across States than withi them , but in either
case it is vital if comparative data are to be relied upon. When comparisons are
made, whether they involve earngs per share of corporations or complaints to
medical boards per licensed physician, definitions must be consistent if they are to
useful.

The specific questions that would carr the most comparative value is a matter that
warrants further examiation and experientation. We View the ones we have posed
as preliminary suggestions meant to stimulate inquir and momentum toward the
establihment and use of performance indicators. Yet , given the minial
performance-related data we found in the annual reports, it may be that little
momentum is liely      as long as the collection and issuance of such data are voluntary.
For that reason,    we suggest that State legislatures mandate that State medical boards
establish a series of performance indicators and provide data on each of them in
annual report made available to governmental offcials and the public. Toward this
end , the National Conference of State Legislatures , the National Governors
Association, the Council of State Governents , the Federation of State Medical
Boards and the United States Public Health Servce can play valuable          supportive
roles as agents for the exchange of ideas and inormation.
                              , "




                      APPENDIX A

                               ENDNOTES

In the educational field, the White House and the National Governors
Association have established a panel to gauge the nation s progress toward six
mutually agreed upon education goals. Toward that end, one of the tasks of

goals.
the panel is to select precise measures and to assess progress in reaching the


In the health care field, the movement to establish medica practice guidelies
follows the same direction. Of particular note are the effort of the Agency
for Health Care Policy and. Research in the United States Public Health
Servce to establish Medicare practice guidelines addressing such areas as
cataracts , prostate disease , and pain management.

See H.R. 5687-  , Section 902 Authority and Functions of Agency Chief
Financial Offcers.

The project involves identifg       the most significant indicators of
medical board performance. See Federation of State Medica Boards
FSMB Newsletter. no. 36 (September 1990).

See Health Advocacy Servces ,       America Association of Retied
Persons,   Citizen Advocacy News. vol. 2, no. 3 (4th quarer, 199).

The proposed legislation is entitled the "Health Cae Liabilty Reform and
Qualty of Care Improvement Act of 1991." It provides         fiancial    incentives for
the States to  caout tort and quality of care reforms.

                                mentioned in the text we have issued the
In adqition to the report already
following report concerng State medical boards: "Medica Licensure and
Disciplie: An Overvew, (P- 01-8600), June 1986; "State Medica Boards
and Medica Discipline: A State-by-State Review " (OEI- 01-89- 00562), August
1990; and " Quality Assurance Activities of Medical Licensure Authorities
the United States and Caada" (OEI- 01- 89- 00561), Februar 1991.

Virgiia Department of Health Professions ,
                                         the Board of Health
Professions A Review of Enforcement and. Discipline in the
Department of Health Professions. June 199.

We wrote to each State medica board, requesting a copy of its most
recent annual report. For those boards that did not respond, we
followed up with a call to determine if, in fact, the board or some State
       agency produced an annual report on the board' s activities. We
       defied the reports as being documents produced annually that were
       made available to the State legislature, governor s offce, and the
       public. We did not include internal data summaries or periodic
       summares or studies. Also , we did not require that the data provided
       in the reports distinguish actions   taken against physicians as opposed to
       other licensees under the board' s jursdiction. Such a distinction would
       obviously be helpful for intra- State assessments and essential for inter­
       state comparisons.

       In computing and presenting the data , we stressed accuracy and precision.
       We conducted two checks of all the data, one by ourselves and one by the
       boards involved. Stil , with the meanig of data categories in annual report
       sometimes unclear, it is possible that there are some mistakes or omissions.

       Thee States , Minnesota , Virgia, and Wisconsin , produce a report
       every 2 years. We include them in our review.

10.	   As we note subsequently in the text , we recogne that many boards
       have access to much more inormation on their performance than is
       presented in an annual report. Our focus here is not on the
       inormation available or periodicaly presented, but on that regularly
       made available in annual reports directed to external audiences.

11.	   Elements of a Modern State Medical Board: A Proposal. August 1989.

12.	   Ibid. ,   p. 15.


13.	   Diferent boards    may define complaints and other variables addressed
       in this report in different ways. Over time , especially if boards were to
       engage in interstate comparisons , consistency in these defitions
       important. Our intent in this report: however, is lited to determg
       whether or not an annual report includes data (in the form of yearly
       summaries) addressing the variables posed in the questions , even if the
       variables are defied somewhat diferently in dierent States.

14.	   For example ,   many boards now seek to identif "markers " of possible
       violations by requiring that physicians , as part of their license renewal
       applications , submit information on various actions or conditions that
       would be of concern to the boards. Such information leads , in some
       cases, to the opening of an investigation.

15.	   It may also be desirable to include cases    that did not involve a
                       but did involve a referral to an impaired physicians
       dicipliary action
       program. We did not include such cases in our review because our


                                            A­
       prior investigations indicated that such referrals are often not treated as

       an offcial , documented board action.

16.	   American Association of Retired Persons Effective Physician Oversight:
       Prescription for Medical Licensing Board Reform. 1987.

17.	   A Review of Enforcement and Discipline in the Department of Health
       Professions.   p. 6.




                                          A ­

                            APPENDIX
                                mE 1WNI QUESTIONS

       How many complaints has the State medical board received?


       How many cases has the board opened for investigation?


       How many complaints per licensee has the board received?


       How many cases per licensee has the board opened?


       How many complaints from each complaint source has the board received?


       How many cases. from each complaint source has the board opened?


       How many complaints of each tye     has the board received?


       How many cases of each tye    has   the board opened?


       How long, on average, has it taken from the opening of a case to the

       completion of an investigation?

10.	   How long, on average , has it taken from the openig of a cae to the
       completion of an investigation for each tye of case?

11.	   How long, on average , has it taken from the opening of a case to the
       resolution of action?



12.	   How long, on average , has it taken from the openig of a cae to the
       resolution of action for each tye of case?

13.	   How many caes opened for investigation have been closed without action
       resulted in disciplinary action , and resulted in nondisciplinar educational
       action?

14.	   How many discipliar actions per licensee have been taken?

15.	   How many non discipliar    educational   actions per licensee have been taken?

16.	   How many discipliary actions from each complait source have       been taken?
17.   How many nondisciplinary educational actions from each complaint source
      have been taken?


18.   How many discipliary actions for each tye of   cae have been   taken?

19.   How many disciplinary actions of each tye have been taken?

20.   How many cases have been settled through a consent agreement as opposed
      to an evidentiary hearing?
